                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-11-10-0041                                                                   Page 1 ofl



         This investigation was based on information received from another federal agency's OIG 1 that
         they were investigating a university2 that had indications of systemic issues in the financial
         administration of its federal awards. The purpose of our investigation was to determine whether
         the possible systemic issues affected the financial administration of NSF awards.

         Our investigation, which included a financial review of thirty NSF awards, did not find evidence
         of systemic issues in the administration of NSF awards. However; the investigation did reveal
         two awards 3 for which the university did not administer participant support funds consistent with
         NSF requirements. The university subsequently returned $60,404 to NSF.

          Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11102)
